HHS/OIG, Audit -"Assist Audit of the Centers for Medicare&Medicaid Services' Fiscal Year 2003 Financial Statements at Palmetto Government Benefits Administrator - January 2003,"(A-04-03-03027)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Assist Audit of the Centers for Medicare & Medicaid Services' Fiscal Year 2003 Financial Statements at Palmetto
Government Benefits Administrator - January 2003," (A-04-03-03027)
February 26, 2004
Complete
Text of Report is available in PDF format (371 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review showed that Palmettos:  (1) accounting controls for generating a paid claims electronic file were generally
adequate, and (2) monthly financial reconciliations were substantially accurate, supportable, and complete.  However,
we noted that the Multi-Carrier System is unable to generate a paid claims electronic file and this resulted in our being
unable to reconcile total funds expended totaling approximately $1.7 million for Part B Ohio and West Virginia, and for
the Railroad Retirement Board.